March 18, 2002

MEMORANDUM FOR:               EMILY STOVER DeROCCO
                              Deputy Assistant Secretary
                               for Employment and Training


FROM:                         ELLIOT P. LEWIS
                              Acting Deputy Inspector General
                               for Audit

SUBJECT:                      Unemployment Insurance Field Audit Program:
                              Followup on the Results of Blocked Claim Audits for CY 2001
                              Report No. 03-02-007-03-315


During Calendar Year (CY) 2001, we followed up with the State Employment Security Agencies
to determine what effect revisions to the Employment Security Manual (ESM) had on states’
successes in identifying hidden or unreported wages and collecting related tax contributions from
employers through field tax audits.

The Employment and Training Administration (ETA) made the ESM revisions in February 1999
in response to a finding in our audit report entitled Improvements are Needed in the Evaluation of
Audit Quality and the Reporting of Blocked Claim Audits, Final Letter Report No. 03-98-008-
03-315, issued September 25, 1998. Briefly, the audit found that many states were discouraged
from conducting blocked claim audits, which is one of the more effective ways to identify hidden
wages, because they did not meet the definition of a reportable audit (output) through ETA’s 581
Contributions Operations report. ETA’s revision of the definition allowed states to get credit for
conducting blocked claim audits beginning in CY 1999.

Results of ESM Revisions

In our CY 2001 followup, 30 states reported that they (1) identified more than 18,507 employees
who had been misclassified by their employers, and (2) recovered more than $7.2 million of
Unemployment Insurance (UI) tax contributions as a result of blocked claim audits conducted
during CY 2001 that would not have been conducted without the ESM revisions.

Based on the information provided by the states, the Office of Inspector General (OIG) believes
that ETA’s revision of the ESM has maintained a significant positive effect on the performance
and results of state field tax audit programs.
Background

Unfortunately, not all employers voluntarily report all UI-covered wages or pay their fair share of
UI taxes as required by law. When employers classify employees as independent contractors,
employers reduce their tax liability by not having to pay state and Federal UI and social security
taxes. Employers also avoid the costs of withholding income taxes or providing fringe benefits as
they do for employees. Other incentives for not treating workers as employees include the costs
associated with minimum wage laws, workers’ compensation insurance, and collective bargaining.
Thus, when an employee is misclassified, tax revenues and benefits are lost.

In our 1998 audit, states ranked the search for hidden wages (blocked claims) as their primary
concern. They contended that the most common reporting error was the misclassification of
workers as independent contractors. A blocked claim is a claim for benefits for which
employment status or wage credits are questioned. If not resolved by claim representatives, such
claims are referred to the field audit staff for investigation and resolution. The investigation may
result in a field audit.

Our audit found that some states were not performing blocked claim audits and others were
performing blocked claim audits but could not report the results because of the ESM definition
contained in ESM Appendix E, Part V, Section 3670-3693. ETA’s response to our report
concurred that the ESM policy should be revised. On February 5, 1999, Office of Workforce
Security (OWS) issued Manual Transmittal Letter (MTL) 1473 permitting states more flexibility
in converting field investigations into audits.

Results of Followup

We worked with the OWS to gather from the states the results of blocked claim audits that
would not have been conducted before the implementation of ESM changes.

The OIG, in agreement with OWS, developed a method to gather CY 1999, and subsequently
CY 2000 and CY 2001, blocked claim audit results to determine the impact of the above-
mentioned ESM changes on blocked claim audits and the potential future impact on states’ audit
programs. We requested states to provide, on a Quarterly Electronic Worksheet, the results of
blocked claim audits that they would not have conducted prior to ESM Appendix E, Part V,
Section 3670-3693, modification resulting from UI Program Letter 03-99 and MTL 1473.

Specifically, we asked the states to provide the following information:

       •   total underreported and overreported contributions resulting from blocked claim
           audits, and
       •   total number of misclassified employees resulting from blocked claim audits.




                                                 2
Our CY 2001 followup for the 53 reporting entities (50 states and 3 territories) determined:

       •   30 states (or 57 percent) reported results from blocked claim audits that would not
           have been performed before the ESM changes

               •   18,507 misclassified employees were identified

               •   $7,213,474 in net contributions were recovered

       •   2 states plan to report blocked claim audit results in CY 2002

               •   1 state plans to begin performing and reporting blocked claim audits in
                   CY 2002 after a new audit program or automated tax system has been
                   completed

               •   1 state plans to begin reporting blocked claim audit results in CY 2002 after
                   installation of a new automated UI Tax system.

       •   21 states do not plan to change their practices of performing blocked claim audits

               •   6 states performed blocked claim audits before the ESM changes and are not
                   counted in the above figures for the 27 states

               •   14 states do not conduct blocked claim audits as part of their audit program

               •   1 state is without an operating audit program




                                                  3
The following chart summarizes the results by quarter from blocked claim audits that would not
have been performed before the ESM changes for CY 1999, CY 2000, and CY 2001.


   CY 1999        Number of                     Misclassified Employees                   Net Contributions
 CY 2000, and  States Reporting                        Identified                            Recovered*
   CY 2001
  by Quarter 1999    2000 2001                    1999      2000       2001       1999           2000         2001

First Quarter         12        26       30       3,164        3,619   5,337     $422,675 $1,362,106 $2,167,224

Second Quarter        15        27       30       3,389        5,547   5,185       525,286      1,332,986   2,703,172
Third Quarter         21        27       30       2,789        6,035   3,961       726,668      1,245,202   1,376,222
Fourth Quarter        23        27       30       3,908        5,019   4,024       868,920      2,062,676     966,856
     Totals           23        27       30      13,250 20,220 18,507 $2,543,549 $6,002,970 $7,213,474

              * We were unable to determine the amount of unreported (hidden) wages identified
                by the states that resulted in the recovery of the net UI contributions reported above.



In summary, the chart above shows the benefits derived by 30 states that took advantage of the
MTL 1473 permitting states more flexibility in converting field investigations into audits. Based
on the results of our Quarterly Electronic Worksheet, some states still are not willing to change
their audit program’s policy. Specifically, 15 (or 28 percent) of the 53 states and territories do
not, and have no plans to, perform blocked claim audits.

                                                    *****
Thank you for the excellent cooperation provided to us by Ms. Grace Kilbane, Administrator,
OWS, and Mr. Rett Hensley, and their staff in this audit.

This letter report is for your information and requires no response. If you have any questions
about this letter report, please contact Michael T. Hill, Regional Inspector General for Audit, in
Philadelphia at (215) 656-2300.




                                                           4
